<html>
<title> - BUREAU OF COUNTERTERRORISM: BUDGET, PROGRAMS, AND POLICIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                      BUREAU OF COUNTERTERRORISM: 
                     BUDGET, PROGRAMS, AND POLICIES 

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2012

                               __________

                           Serial No. 112-135

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-816 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                 EDWARD R. ROYCE, California, Chairman
TED POE, Texas                       BRAD SHERMAN, California
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
BILL JOHNSON, Ohio                   GERALD E. CONNOLLY, Virginia
TIM GRIFFIN, Arkansas                BRIAN HIGGINS, New York
ANN MARIE BUERKLE, New York          ALLYSON SCHWARTZ, Pennsylvania
RENEE ELLMERS, North Carolina



                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Daniel Benjamin, Ambassador-at-Large, Coordinator 
  for Counterterrorism, Bureau of Counterterrorism, U.S. 
  Department of State............................................     8

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on 
  Terrorism, Nonproliferation, and Trade: Prepared statement.....     3
The Honorable Daniel Benjamin: Prepared statement................    10

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    35


       BUREAU OF COUNTERTERRORISM: BUDGET, PROGRAMS, AND POLICIES

                              ----------                              


                       WEDNESDAY, APRIL 18, 2012

              House of Representatives,    
                     Subcommittee on Terrorism,    
                           Nonproliferation, and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Edward 
R. Royce (chairman of the subcommittee) presiding.
    Mr. Royce. This hearing will come to order.
    Today we welcome Ambassador Benjamin back to the 
subcommittee for our yearly look at the State Department's 
handling of counterterrorism issues. And while al-Qaeda has 
taken major blows in the past year, the terrorism threat itself 
remains very real.
    Late last year the committee was notified that the Office 
of the Coordinator for Counterterrorism, which has been in 
existence since 1972, would transform into the Bureau of 
Counterterrorism. According to the State Department, this 
elevation was natural, as the office's responsibilities had 
outgrown the coordinator title.
    When reported to Congress, the State Department noted that 
only existing funds would be required to create the new Bureau 
and that any changes in personnel would be, in their words, 
``marginal.'' Well, for this fiscal year, the Bureau is seeking 
to increase staffing by 17 percent, which is a rather 
unorthodox definition of ``marginal.''
    The State Department would like for this new bureau to be 
headed by an Assistant Secretary, and specifically by 
Ambassador Benjamin, our witness here. The Department could 
have made this move on its own, but it chose to take the heads 
of its new Energy and Post-Conflict Bureaus' Assistant 
Secretaries instead and appoint them instead. Making that 
choice, and now facing a statutory cap for Assistant Secretary 
positions, the State Department is seeking legislative relief 
to allow the Counterterrorism Bureau to also be headed by an 
Assistant Secretary.
    Most Members of Congress probably think that the State 
Department can be run quite well by the 24 Assistant 
Secretaries and the dozens of special envoys it already has, 
and that is why we have raised this point before, our 
suspicions about this, and we indeed have found ourselves in 
this same conundrum with circumventing the cap.
    But more critical than title, it is the control of 
resources that will seal this new Bureau's fate. While we have 
a few hundred million dollars in counterterrorism assistance 
money flowing through the State Department, less than half of 
it--less than half that amount is controlled by Ambassador 
Benjamin's bureau. Posts and regional bureaus control the rest 
of the funds. If the Bureau of Counterterrorism is to play as 
robust a role as envisioned--and, by the way, we on this 
subcommittee support that role--that equation has got to change 
in terms of control of those funds.
    The counterterrorism landscape has changed substantially 
since the Ambassador's testimony 1 year ago. Osama bin Laden 
and Anwar al-Awlaki are now dead. But senior Obama 
administration officials have gone so far as to declare that 
the United States is--and I am going to quote the 
administration--``within reach of strategically defeating al-
Qaeda.''
    Yet just weeks before bin Laden's death we heard testimony 
before this subcommittee--Ambassador Benjamin mentioned at the 
time--``we continue to see a strong flow of new recruits into 
many of the most dangerous terrorist organizations.'' So we 
will hear if that is still the case today. But a year has 
brought other changes as well.
    Radical elements have Egypt looking into the abyss, armed 
militias have Libya deeply factionalized, there are concerns 
over foreign fighters in Syria. It is hard to see how some of 
these developments have not harmed U.S. counterterrorism 
efforts.
    Other regions, like Africa and the Western Hemisphere, are 
of concern. Earlier this year this subcommittee moved 
legislation focused on Iran's growing role in the Western 
Hemisphere, and we have got groups like Boko Haram, which means 
education is sinful, carrying out attacks across Nigeria, 
creating mayhem there.
    Pakistan, specifically its security services, and their 
backing of an array of militant groups, is a perennial concern 
for us. Just the other week, the State Department announced a 
reward for information leading to the conviction of Hafiz 
Mohammed Said, the head of the ``army of the pure,'' or as they 
are also called, Lashkar-e-Taiba. That group was the outfit 
that carried out the attacks on Mumbai.
    That this individual continues to operate freely today 
inside Pakistan certainly is an indictment of Islamabad as a 
counterterrorism partner. Unfortunately, there are many other 
such individuals that are loose and maybe did not commit that 
particular rampage but are planning the next one, that are 
operating freely in Pakistan today as well.
    We look forward to discussing these and other issues with 
Ambassador Benjamin, and I will now turn to Ranking Member 
Sherman for an opening statement.
    [The prepared statement of Mr. Royce follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Sherman. Thank you, Chairman Royce, for holding this 
important hearing. In November 2011, the Congress was notified 
that the Office of the Coordinator for Counterterrorism, which 
had been in existence since 1972, would be upgraded to the 
Bureau of Counterterrorism. On July 4, 2012, the new bureau was 
announced. For Fiscal Year 2013, the administration has 
requested $238 million to fund various antiterrorism programs 
with the Bureau.
    In Fiscal Year 2011, actual spending for these programs was 
$286 million, and in Fiscal Year 2012 the likely amount will be 
$268 million. So the administration is actually seeking a 
significant decrease in funds available for antiterrorism 
programs at the State Department.
    I would like to hear from our witness how the transition 
from an office to a bureau has aided our counterterrorism 
efforts. I would like to thank Ambassador Benjamin for his 
service and look forward to his continuing service in this 
difficult global environment.
    I am considerably less skeptical than the chairman of the 
Bureau of Counterterrorism being in fact a bureau and not an 
office. And even if the administration was seeking an increase 
in funding for the Bureau, I, given the importance of your 
work, would be supportive. But it appears from the statistics I 
just went over that the administration is able to function 
without seeking an increase.
    One program of particular importance is the Countering 
Violent Extremism, CVE Program, that aims to prevent at-risk 
youth from turning to terrorism to contest militant propaganda 
and persuade terrorists to renounce violence and to renounce 
their affiliation with terrorist organizations.
    The State Department has identified five CVE priority 
countries--Algeria, Bangladesh, Indonesia, Kenya, and Pakistan. 
I especially want to focus on Pakistan, where I think it is 
very important that we reach out through the Voice of America, 
not only in the Urdu language but in other languages that are 
commonly spoken in Pakistan.
    This should not be interpreted by the Pakistani Government 
as being an effort toward separatism. If you are trying to sell 
products in Los Angeles, you wouldn't dream of having your 
advertising program being in only one language. Walmart is not 
trying to separate any part of California from the United 
States, but they are trying to sell a product to people that 
speak a variety of languages.
    We have captured or killed most of the world's dangerous--
many of the world's dangerous terrorists, but we have not been 
fully successful in the war of ideas and stemming recruitment. 
I know the creation of the CVE program was a priority for 
Ambassador Benjamin, and I would like the Ambassador to comment 
on the effectiveness of this modest program, which is now at 
$15 million, and whether it needs to be expanded either in 
amount spent in each country or to add more than five priority 
countries.
    To defeat terrorists long term we must take steps to reduce 
recruitment from--of young Muslim men into extremist, violent, 
and Islamist organizations. I agree that one of the most 
important missions of the Bureau of Counterterrorism will be to 
lead U.S. Government efforts to counter violent extremism by 
delegitimizing the extremist narrative and developing positive 
alternatives for young Muslims vulnerable to recruitment.
    Now, I do have one area that I would like to--where I 
differ from State Department policy, and that is with regard to 
the MEK and Camp Liberty. The U.S. Court of Appeals ruled in 
2010 that the State Department made procedural errors in 
reclassifying this dissident group as a terrorist organization.
    The court opinion said that the State Department failed to 
accord the PMOI the due process protections required by law and 
needs to review the status. We would like to see the State 
Department act. I realize that Ambassador Benjamin is not in 
full control of this entire process. To consider an MEK 
petition for a writ of mandamus, an extraordinary remedy not 
often granted by the courts, especially not in the foreign 
policy area, the court has scheduled an oral argument for May 
8, 2012.
    Ambassador Benjamin, your predecessor, Ambassador Dell 
Dailey, has recommended the MEK be removed from the list of 
terrorist organizations. I am not aware, and I got the 
classified briefings, of anything this group has done in recent 
years that would justify continued designation.
    I will note later in this excessively long opening 
statement that the Haqqani group has not been designated, and 
one has little difficulty identifying acts that the Haqqani 
group has committed. That should justify putting them on the 
list of foreign terrorist organizations.
    The State Department should not list groups as terrorist 
organizations and just leave them there. The purpose of the 
designation is in part to force the organization to change its 
behavior, and whatever behavior caused the MEK to be listed, 
and even that is subject to dispute. No one asserts that they 
have not identified--that they have taken action in recent 
years that would cause them to be put on the list, and of 
course the contrast to the Haqqani network is extensive.
    I have gone on a little long. I will make a few more 
opening comment remarks when I am called upon for questions, 
and that means I will have even less time to hear from the 
witness, which is why I am going to listen to him so intently 
during his opening statement.
    Mr. Royce. Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. Ambassador Benjamin, it 
seems to me we still have a continuous problem. Iraq does not 
want Camp Liberty to be a permanent camp for MEK residents. You 
can look at the camp and see that that is obvious. The 
conditions, in my opinion, are deplorable. Rudy Giuliani says 
it is not a camp; it is a concentration camp.
    The MEK residents who were all but forced out of their 
homes in Camp Ashraf don't want to be in Camp Liberty for a 
long period of time either, and the United States, I don't 
believe, wants them to stay for a long period of time and risk 
possibly another assault and massacre by the Iraqi Government, 
who I think gives into Iranian pressure.
    The problem we have is no evidence that the MEK residents 
will have anywhere to go once they are determined to be 
political refugees. There are 1,600 residents in the camp. 
After 4 months from when one transition--the transition process 
began, no one, not one person, has been resettled to a third 
country or even been declared a political refugee.
    Until people in the camp start being resettled to third 
countries--third party countries, why should Camp Ashraf 
residents view this as a temporary home? The center of this 
whole issue is the designation by our Government, specifically 
the State Department of the foreign terrorist organization of 
the MEK.
    Our country may be willing to take some of the refugees. 
But as long as we call them ``terrorists,'' we are not going to 
take them, and third party--or third party countries aren't 
going to take them either. The fact is, Ambassador--and correct 
me if I am wrong--we know of no country as of today that have 
taken or are willing to take MEK residents. I believe it is all 
because of the designation.
    I hope you can explain why it is that the reevaluation of 
the MEK's FTO designation is taking so long. Secretary Clinton 
told us back in February that she has folks ``working around 
the clock on this.'' And I admire her if that is true, and I 
believe it to be true. But what is the hold up? Is there new 
evidence that is to be considered? Confusion about what the law 
is? Is this country worried about the mullahs in Iran and what 
they will think? What is the problem? Why is there no 
reevaluation?
    The FTO designation is not just some side issue. It is the 
one thing that affects the people in Camp Ashraf and progress 
being made to move those people to other countries in the 
world. I, as Ranking Member Sherman has said, have seen all of 
the evidence that we can be given about the FTO designation. It 
is not compelling that the MEK should stay on the FTO 
designation.
    I am willing to see any evidence. I suggest, and strongly 
urge, that the State Department, who is stonewalling this, show 
us the evidence or delist the MEK. That is what they need to 
do. We need to treat the people in Camp Ashraf like Human 
beings. They should not be confined to a concentration camp, as 
Rudy Giuliani has said.
    It is interesting--today we heard in the Foreign Affairs 
Committee from not the government officials but private 
officials that North Korea should be an FTO designation, but 
they are not. I think the little fellow from the desert, 
Ahmadinejad, he should be designated as a foreign terrorist 
organization, but not the MEK. Show the proof or delist the 
MEK.
    And I will have some more questions later. Thank you for 
being here. I yield back.
    Mr. Royce. Thank you, Judge Poe.
    We are joined today by Ambassador Daniel Benjamin, the 
State Department's Coordinator for Counterterrorism, and head 
of the Bureau of Counterterrorism. Ambassador Benjamin has been 
the Senior Counterterrorism Advisor to the Secretary of State 
since 2009. In the late '90s, Mr. Benjamin served on the 
National Security Council as Director for Counterterrorism in 
the Office of Transnational Threats.
    Before entering government, Mr. Benjamin was a foreign 
correspondent for Time Magazine and for The Wall Street 
Journal. Ambassador Benjamin was the co-author of ``The Age of 
Sacred Terror,'' a book that won several awards. So we want to 
welcome you back to the committee.
    Your complete written testimony, of course, is going to be 
entered into the record. So we would ask that you give us a 5-
minute summary here, if you could, and then we will go to 
questions. Please begin.

   STATEMENT OF THE HONORABLE DANIEL BENJAMIN, AMBASSADOR-AT-
      LARGE, COORDINATOR FOR COUNTERTERRORISM, BUREAU OF 
           COUNTERTERRORISM, U.S. DEPARTMENT OF STATE

    Ambassador Benjamin. Chairman Royce, Ranking Member 
Sherman, distinguished members of the committee, thank you 
again for the opportunity to appear before you today. And as 
you mentioned, I have submitted testimony for the record that 
provides additional details about the Counterterrorism Bureau's 
policies, programs, and budget.
    Since I appeared before this committee the last time, my 
office was upgraded to full bureau status, fulfilling one of 
the key recommendations of the quadrennial diplomacy and 
development review. This change will strengthen the State 
Department's ability to carry out its civilian counterterrorism 
mission around the world.
    In coordination with Department leadership, the national 
security staff, and other U.S. Government agencies, the Bureau 
develops and implements civilian counterterrorism strategies, 
policies, operations, and programs. Our efforts constitute what 
we refer to as strategic counterterrorism. It is an approach 
that Secretary Clinton has championed, and its basic premise is 
that United States CT efforts require a whole of government 
approach that must go beyond traditional intelligence, 
military, and law enforcement functions.
    As the national strategy for counterterrorism released last 
year makes clear, we are engaged in a broad, sustained, and 
integrated campaign that harnesses every tool of American 
power--civilian, military, and the power of our values, 
together with the concerted efforts of allies, partners, and 
multilateral institutions to address a short-term and a long-
term challenge.
    Our tactical abilities, as exemplified by the extraordinary 
mission against bin Laden last year, answer a critical national 
need, but they are only one part of our comprehensive CT 
strategy, which also includes concerted action to reduce 
radicalization, stop the flow of new recruits, and create an 
international environment that is inhospitable for all forms of 
support and activities required to sustain international 
terrorist organizations, including fund raising, recruitment, 
illicit travel and training. And while these activities may not 
grab the headlines, they are wise investments against the long-
term counterterrorism challenge.
    Achieving these ends requires smart power and the 
integration of all of our foreign policy tools--diplomacy and 
development, together with defense, intelligence, and law 
enforcement capabilities. Only this way can we empower our 
partners to deal with the threats within their borders and 
regions, so that they can address local and regional threats 
before they become global ones that demand a much more costly 
response. The State Department has a prominent role to play on 
the strategic side, as these elements of our CT work are 
civilian-led activities.
    Let me now speak about capacity building. Weak states serve 
as breeding grounds for terrorism and instability. When states 
have the political will, we can assist with capacity building 
programs to build law enforcement capability and good 
governance. Our key capacity building programs are the 
Antiterrorism Assistance Program, Counterterrorist Finance, and 
TIP/PISCES.
    Lessons learned from our ongoing capacity building efforts 
have demonstrated that sustained donor attention, partner 
nation political will, and sizeable investments make a 
difference.
    Let me talk about countering violent extremism. What 
sustains terrorist groups is the steady flow of recruits who 
replace terrorists who are killed or captured. We must undercut 
the ideological and rhetorical underpinnings that make the 
violent extremist world view attractive, while also addressing 
local drivers of extremism.
    To delegitimize the narrative of al-Qaeda, its affiliates, 
and its adherence, the CT Bureau helps stand up the Center for 
Strategic Counterterrorism Communications, the CSCC, an 
interagency body that works with communicators in the field to 
counter terrorist narratives and misinformation. It draws on 
the full range of intelligence information and analysis to 
provide context and feedback for communicators.
    The CSCC challenges extremist messages online in Arabic, 
Urdu, and Somali on forums, blogs, and social networking sites, 
and also produces and disseminates targeted, attributed videos.
    Successful CVE involves more than messaging. We are also 
developing programs to provide alternatives for at-risk youth, 
including social media programs to generate constructive local 
initiatives. And we are supporting skillbuilding, youth 
leadership activities, and mentoring efforts.
    Let me turn, finally, to multilateral engagement, and in 
particular the Global Counterterrorism Forum. Strengthening 
partnerships is at the heart of our strategic counterterrorism 
efforts, and one of our key initiatives is building the needed 
international architecture to address 21st century terrorism, 
and thereby to fill a critical gap; the lack of a nimble, 
multilateral platform to allow counterterrorism policymakers 
and practitioners to share expertise, experiences, and lessons 
learned; and of course to mobilize resources and political 
will.
    To this end, the Bureau created the Global Counterterrorism 
Forum. At its September launch, Secretary Clinton was quite 
clear. ``We don't need another debating society,'' she said, 
``we need a catalyst for action.'' In this spirit, two 
deliverables announced at the September launch demonstrate its 
action-oriented nature. The first was approximately $100 
million contributed by several members to develop rule of law 
institutions.
    The United Arab Emirates announced the second deliverable--
its intention to host the first ever international center of 
excellence on countering violent extremism, which is slated to 
open in Abu Dhabi in the fall of 2012. The center will 
initially support research, dialogue, and training to 
strengthen the emerging international CVE community.
    I see that I have already gone over my time, and so with 
that in mind I will now conclude my remarks, and I look forward 
to your questions.
    Thank you very much.
    [The prepared statement of Ambassador Benjamin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Royce. Thank you. I am going to go to Mr. Sherman first 
for his questions.
    Mr. Sherman. I will pick up where I left off in the opening 
statement about foreign terrorist organization designation. I 
have advocated for well over a decade that you and your 
predecessors--for any listed terrorist organization that 
evidences a desire not to be on the list, as the IRA once 
evidenced such a desire, lay out what our expectations are of 
that organization, and, if they do meet those conditions, to 
remove them from the terrorist list.
    I am concerned that the continued designation of the MEK 
first doesn't meet that standard in that there weren't clear 
expectations that we have laid out for the MEK, that they could 
meet and justify taking them off the list.
    The second concern I have is that maybe the process has 
been influenced by a poorly conceived notion that we will be 
nice to Tehran and Tehran will be nice to us, and that, 
therefore, we will list the enemies that they seem to hate the 
most as a terrorist organization.
    And then, finally, I think that the continued designation 
of the MEK negatively influences the ability of the UNHCR to 
promptly resettle people of Camp Ashraf, and to prevent violent 
attacks on them. We have seen the Iraqis justify the violent 
attacks on Camp Ashraf because of the MEK's designation, and we 
have seen individuals at that camp unable to get refugee status 
in Europe, in part because of that designation.
    When reviewing potential FTO targets, the State Department 
considers terrorist acts that the groups have carried out, 
whether the group has engaged in planning and preparations for 
possible future terrorism and whether it retains the capacity 
and intent to carry out such attacks. And the organization's 
activities must threaten the security of U.S. nationals or our 
national security interests.
    There are times when perhaps we should add to the foreign 
terrorist list more quickly. We did not designate al-Qaeda of 
the Arabian Peninsula until days before the attempted bombing 
of the airline in 2009 by one of its members. Similarly, the 
Pakistani Taliban was not designated until months after the 
attack on Times Square.
    And we have not yet designated the Afghani Taliban, and I 
have co-sponsored with Mr. Poe, who was just here, a bill to 
designate the Haqqani network, which I think the State 
Department should designate long before we get that bill 
passed.
    So, Ambassador Benjamin, what can we do to make the 
designation process more nimble, better able to carry out its 
purposes and act quickly to designate those organizations that 
are a real threat, and to remove those who either were never a 
threat or have changed their behavior appropriately?
    Ambassador Benjamin. Ranking Member Sherman, we certainly 
agree with your desire to be more nimble, or at least to be 
able to work more quickly on designations. And I would like to 
point out that in the last 2 years the office, now the bureau, 
has done more designations than in the previous 8 years 
combined, and we have significantly stepped up the pace of 
work.
    Mr. Royce spoke before about additional staff. We are 
trying to build up our staff so that we can do more in this 
area. We consider it a vital part of our business and an 
essential part of our national counterterrorism efforts. And I 
would add that the last year was in fact the most productive 
year we have ever had.
    But having said that, the law, nonetheless, and the 
practice that has been established by the Department over the 
last--over recent decades requires us to be extremely diligent, 
deliberative, and complete--comprehensive in our efforts here, 
and we have not yet found any shortcuts to providing--to 
compiling the kinds of baseline analyses and inventory of 
information necessary both to list and delist.
    So I have a lot of people who are working very, very hard 
on this, but we haven't yet found the work-around that will get 
us to an instant recognition of whether a group belongs on or 
off the list. We still have to do the hard work.
    Mr. Sherman. Thank you. I know your folks are working hard, 
you have done a lot, appreciate your service, and, at the same 
time, a list that would list the MEK but not the Haqqani 
network is hard to justify to my constituents. And I yield 
back.
    Mr. Royce. Just for the record, the overall question of 
elevating to a bureau, as you and I have discussed, we 
supported elevation to a bureau. The point was that the State 
Department had the capacity to do that. The point was that the 
State Department seeked to circumvent the process when there 
were actually three elevations to bureaus that they were 
attempting to negotiate. They had two slots.
    So at the end of the day, despite assurances in terms of 
what the overall staffing would be, you now have more personnel 
as a consequence, including the 17 percent increase. So that 
was the issue at hand for us, so the overall totality in terms 
of what the State Department does with its personnel positions 
and its ever-increasing size and scope.
    Getting down to the issues at hand, the one that I wanted 
to ask you about was a quote from a columnist last week. I 
don't know the answer to this, but here is his question. 
``Osama bin Laden lived in five houses in Pakistan, fathered 
four children there, kept three wives . . . had two children 
born in public hospitals and through it all, the Pakistani 
Government did not know one single thing about his whereabouts? 
Can this possibly be true?'' he asks.
    I don't know what the answer to that is, but I did want to 
ask, Ambassador Benjamin, for your judgment on that.
    Ambassador Benjamin. Mr. Royce, if I may, first very 
briefly just on that 17 percent figure, I would like to just 
underscore that that figure--that projection had already been 
established well before the work to become a bureau had been--
--
    Mr. Royce. And, Ambassador, you and I don't really have an 
argument about that. It is the overall decision by the State 
Department to not live within the constraints put by the 
Congress in terms of the total number of bureaus. And the easy 
way for them to get around it was not to elevate you to bureau 
status within the existing confines--so I just want to explain 
that. We are good on that.
    Ambassador Benjamin. Okay.
    Mr. Royce. But it is the agency, it is the Department that 
I think needs to play by the rules that are set out in terms of 
the constraints. But go ahead with your----
    Ambassador Benjamin. With regard to the issue of bin 
Laden's presence in Pakistan during those years, I can only 
reiterate what you have heard from other officials. We do find 
it remarkable, but we still, to this point, do not have any 
evidence that suggests that the Pakistani Government per se had 
any knowledge of bin Laden's whereabouts.
    And we have certainly looked at this many different ways, 
and it is certainly the case that there were some people--I 
think as then-CIA Director Panetta said--there was undoubtedly 
the case that there were people in Pakistan who knew where bin 
Laden was. But we have no conclusive evidence that the 
Pakistani Government knew where he was.
    Mr. Royce. Let me ask you, in Africa--get your thought here 
on Boko Haram, and especially its relationship with al-Qaeda as 
well as Mali and the problems there. After the Easter attacks 
by Boko Haram on a number of churches in Nigeria, dozens of 
people were left dead, and we had a high-ranking member of the 
State Department say that religion is not driving extremist 
violence in Nigeria.
    Then, you had following that the recent military coup in 
Mali, and Islamist fighters have now descended on the northern 
part of the country. Top leaders of al-Qaeda's North African 
branch have been seen in the area reportedly, so I would just 
ask you, what is the outlook there?
    I had a Muslim governor of a northern Nigerian province 
tell me that he was very, very concerned with the change in the 
indigenous Islam of Nigeria as imams were being imported always 
with--you know, they bring a lot of money with them. But there 
was always an imam from the Gulf states who would then set up 
shop and begin expressing a different type of Islam than the 
indigenous Islam that he had grown up with. And he was 
concerned for his safety, his security, in northern Nigeria as 
a result.
    I would just like your insights here.
    Ambassador Benjamin. Thank you very much, sir. We are 
deeply concerned by what is going on in Nigeria. And while I 
would agree with whomever made the remark that religion was not 
the principal driver, it is certainly the case that extremism 
in the north and in Nigeria is being expressed in intercommunal 
and interreligious strife, and there have been lots of attacks 
on churches. That is obviously the case.
    We are deeply concerned about any connections that Boko 
Haram, which is a loosely organized organization, in fact sort 
of a cluster of organizations, may have, in particular with al-
Qaeda and the Islamic Maghreb. And it seems clear that some of 
their tradecraft, some of their ability to carry out terrorist 
attacks, was learned from AQIM.
    We continue to encourage the Nigerian Government at the 
very highest levels to also effectively engage communities 
vulnerable to extremist violence by addressing the underlying 
political and socioeconomic problems in the north, and those 
problems are considerable.
    The Department is going to work through--together with 
other relevant agencies, and the Government of Nigeria and 
international partners, to identify ways that we can erode the 
capacity of Boko Haram to carry out terrorist attacks against 
the U.S., against such international targets as the U.N. 
compound that was bombed, and also to prevent attacks against 
our friends and their interests in Nigeria as well.
    Mr. Royce. Well, if I could interject here in terms of 
putting an end to that, the observations he made to me, the 
Muslim governor of this northern state, is that as long as you 
have the importation of religious leaders with the students, 
according to him, he had been in this particular madrasa, so--
which was across the street from the madrasa, so where he was 
educated, but with a very, very different curriculum.
    He said the young men were wearing Osama bin Laden T-
shirts. If you indoctrinate and raise a generation of young 
kids with that type of ideology, just the same issue that we 
are talking about with Pakistan, as long as these deobandi 
schools, some 600 of these particular deobandi schools continue 
to do that in Pakistan, and now that they are doing it in 
Nigeria and have been doing it for a while, you have got to 
expect problems from the graduating class.
    And you talk a lot about addressing these different 
factors, but to me it seems that the brainwashing and 
indoctrination of this type of ideology so early in life, when 
you are teaching people to commit jihad, and giving them that 
absolutist viewpoint, which now this particular Boko Haram 
wants to--you know, if education itself is a sin, and the goal 
is simply to indoctrinate and brainwash, without solving that 
problem, without shutting that down, the rest of it doesn't 
seem too persuasive to me.
    Our inability to get the government in Pakistan to shut 
down those 600 schools over the last generation is something 
that is beyond me. It is beyond me why the Pakistani Government 
won't do it, and my concern today over what is happening in 
Nigeria is the same.
    Ambassador Benjamin. If I may, sir, you know, the world of 
Islam is profoundly complex. And there is no doubt that there 
are elements of--there are groups, individual donors, and the 
like, who advocate beliefs that involve a strong anti-Western 
sentiment of the kind that you are describing, who are funding 
activities far from their own homes, and this is indeed a major 
problem.
    The ability to crowd out or to combat extremist ideologies 
will depend to some important extent on the ability of those--
of countries and of their donors to provide the social goods 
such as education that will make those schools unattractive.
    Mr. Royce. All right. But we provided the schools in 
Pakistan, or helped do so. I went and visited some of those 
schools the last time I went back. Those schools have been 
blown up, I assume by graduates of these deobandi schools. All 
right? So all I am saying is until those schools are shut down 
by that government in Pakistan, this is going to be a recurring 
problem for Pakistanis and for the United States.
    And certainly for our troops in Afghanistan, for people in 
southern Russia, for people in Mumbai, for people in the 
caucuses, for people in Central Asia, it is a problem that is 
getting exported today, and the problem is the brainwashing 
that goes on in those deobandi schools, and the ineffectual 
effort to get the government to shut it down.
    Ambassador Benjamin. If I may, sir, just one more point, 
and that is that we do approach other governments with 
regularity and intervene with them to tell them about 
individuals who are supporting extremism in ways that lead to 
violence and the unacceptable outcomes that it brings with 
them.
    This is an activity that we embrace, and it goes on in a 
number of different channels. It is clearly something that is 
going to keep us busy for quite some time to come, because of 
the considerable amount of churn that is going on out there in 
that world, and that has led to the kinds of rise in extremism 
that we have seen in some areas.
    But we also know that in particular there are socioeconomic 
grievances in places like northern Nigeria that do need to be 
addressed. And as they are addressed, extremists will have much 
less opportunity to gain a foothold.
    Now, I did also want to just mention the issue that you 
raised regarding northern Mali. I think that it is important to 
recognize that northern Mali has been a troubled area for many 
years. It has been the traditional safe haven of al-Qaeda in 
the Islamic Maghreb for a number of years, really since that 
group was largely pushed out of its traditional reach in 
Algeria. And it is a very sparsely populated area and was 
always only barely under the control of Bamako.
    The U.S. Government has invested significant resources in 
helping Mali and its neighbors reclaim that sanctuary and 
extend the writ of the government there. Unfortunately, those 
efforts are at a halt now, because of the coup. I would not say 
that there has been a large new influx of extremists into 
northern Mali. What here has been is a Touareg rebellion, the 
latest in a long series going back over a century.
    And this has disrupted all of our ability to work against 
AQIM in that region with our regional partners, and we have a 
lot of positive successes to report over the last few years in 
that collaboration. But we are deeply concerned about the 
situation in Mali and working in particular with ECOWAS and 
others in Africa to see to it that Mali returns to democracy, 
and we can return to our collaborative efforts to rid northern 
Mali of AQIM.
    Mr. Royce. I am going to go to Mr. Poe. But before I do, 
the profile of many of these extremists are engineers, they are 
people who have middle class backgrounds. Certainly, bin Laden 
is an example of that. The Muslim governor I know came up in a 
madrasa with 1/100th of the budget of the one that--and he is 
not a radical.
    What has created the radicalism is the fact that we have 
not stopped these particular people from indoctrinating kids. 
And until that is done, the problem will expand.
    Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. Mr. Benjamin, we meet 
again. It is kind of like Groundhog Day. Every 6 months, a 
year, we come to the same part of town and discuss the same 
issues. To my understanding, a foreign terrorist organization 
has got to do several things to be a foreign terrorist 
organization.
    First, they must be a foreign terrorist organization. They 
must engage in some kind of terrorism or terrorist activity and 
have the capability to engage in that terrorist act, and they 
must threaten the security of the United States or U.S. 
nationals.
    In 2004, the MEK gave up their weapons to the United States 
military. Since that time, name one terrorist act that the MEK 
has committed since 2004.
    Ambassador Benjamin. It is not our contention that the MEK 
can be--has committed an act since the group was disarmed.
    Mr. Poe. Excuse me. Let me just--I only have limited time, 
so you can't--there has not been an act of terrorism by the MEK 
against the United States since they gave up their weapons to 
us. Is that right?
    Ambassador Benjamin. We do not allege that there was such 
an act.
    Mr. Poe. Do they have the capability today--2012--to engage 
in some terrorist act against the United States?
    Ambassador Benjamin. We have not come to a conclusion on 
that.
    Mr. Poe. You don't know whether they can--I mean, you are 
the guy who is supposed to tell us about terrorism in the 
world. You don't know whether they--MEK has the capability to 
commit a terrorist act against the United States?
    Ambassador Benjamin. Mr. Poe, no one has been in to inspect 
or otherwise investigate what is in Camp Ashraf right now. And 
we also cannot rule out the possibility that the MEK may have 
weaponry elsewhere.
    Mr. Poe. You don't know that. You don't have any evidence 
that the MEK has a stockpile of weapons someplace. You have no 
evidence of that, do you?
    Ambassador Benjamin. I can't go into the intelligence 
record on this in this setting.
    Mr. Poe. Well, let me ask you this. Since I have seen all 
of the intelligence that you have furnished this committee, 
myself, and Ranking Member Sherman and others, is there any new 
evidence since the last briefing we got by your department and 
the CIA? And if there is, are we going to get a briefing on 
this?
    Ambassador Benjamin. Sir, we would certainly be happy to 
entertain a request for another briefing from the intelligence 
community. I think it is safe to say that there is always 
intelligence coming in. And, frankly, I don't know exactly what 
was in the briefing you got, which was quite some time ago, but 
I will say that this is a deliberative process. And we are 
working hard on it, and we are not finished.
    But I do want to emphasize that as the Secretary has said, 
given the ongoing efforts to relocate the residents of Camp 
Ashraf to Camp Haria, closure of Camp Ashraf, the MEK's main 
paramilitary base, will be a key factor in any decision 
regarding the MEK's FTO status.
    Mr. Poe. Last year in May when you were here you told me 
that the State Department was going to, and I quote, ``make a 
decision within 6 months on whether to continue the designation 
or to delist them.'' We are a year later. How much longer is it 
going to be before you all can make a decision?
    Ambassador Benjamin. Well, I certainly regret the fact that 
my prediction on that was incorrect. I cannot give you a date 
certain. As you know, the parties are in court on that as well. 
We are working as fast as we can. And as I said before, and as 
the Secretary has said, the closure of Camp Ashraf will be a 
key factor in any decision.
    Mr. Poe. Without going into any classified information, 
have you received any new information in the last year about 
the MEK's activities as a foreign terrorist organization?
    Ambassador Benjamin. We have certainly collected more 
information in the last year. And, in fact, we received 
information from the MEK itself, I believe in June, and had an 
exchange between our attorneys and theirs over this issue.
    Mr. Poe. So have you received any information that they are 
continuing--that they are a foreign terrorist organization? A 
specific question, not what you have received from them, have 
you gotten any information in the last year that the MEK, who 
doesn't have any weapons, is a foreign terrorist organization?
    Ambassador Benjamin. Again, sir, that really does go to the 
question of intelligence, which I just can't discuss in this 
setting.
    Mr. Poe. We will--I am requesting the briefing through the 
appropriate chairman that had that confidential briefing. May I 
have unanimous consent for another minute?
    Mr. Royce. Granted.
    Mr. Poe. Thank you, Mr. Chairman. Very quickly, when I was 
in Iraq last year with other members of the committee, we 
wanted to go see Camp Ashraf. One reason that Maliki 
indignantly refused to allow us to go to the camp, and one 
reason he claimed he was treating the people at Camp Ashraf the 
way he was--in a very inhumane manner, in my opinion--was 
because the United States continues to put them on the foreign 
terrorist organization.
    Is the United States succumbing to the pressure of Maliki 
and the Iranian Government, the Mullahs specifically, to keep 
them on the FTO organization list?
    Ambassador Benjamin. Absolutely not. Our decision is 
entirely going to be on the merits, and we are not keeping them 
on the list because of anyone else's concerns or views 
regarding the group.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Royce. Thank you, Mr. Poe. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. Before I begin, may 
I ask unanimous consent my full statement be entered into the 
record?
    Mr. Royce. Yes.
    Mr. Connolly. Without objection, thank you, Mr. Chairman.
    Welcome, Ambassador Benjamin. The Arab Spring, I just came 
back from both Egypt and Libya over the break and have some 
views about what is happening in both of those countries. From 
the United States' point of view, does the Arab Spring and its 
outcome so far help or hurt or have no impact on antiterrorism/
counterterrorism policy?
    Ambassador Benjamin. Well, it is an excellent question, 
sir. Let me frame it this way. The Arab Spring, the Arab 
Awakening presents everyone who opposes extremism with an 
extraordinary opportunity. And that is to build the democracies 
in those countries, countries where people were denied their 
legitimate rights to build the kinds of democracies that would 
provide a place where people could express their dissent 
without turning to violence, where people would have a stake in 
the society, so that they would not want to turn to violence.
    Mr. Connolly. Mr. Ambassador, I understand that. My 
question is really very particular. Are there transitional 
governments in both Libya and Egypt, and Tunisia for that 
matter--do you find cooperation is about the same, improved, or 
actually degraded?
    Ambassador Benjamin. I would say that in the case of 
Tunisia it is undoubtedly improved significantly, and in fact 
my office will be conducting programs under the antiterrorism 
assistance program there. There is no question that there has 
been an improvement. We have a better relationship with the 
Tunis government.
    I would say that we have a good but nascent relationship on 
counterterrorism with Libya, and our counterterrorism 
cooperation continues with Egypt, which is obviously a state 
nation going through considerable major events. But we continue 
to work closely with them, and we are optimistic that that 
cooperation will continue into the future.
    Mr. Connolly. Thank you, Mr. Ambassador. With respect to 
Pakistan, I have two questions. One is, first of all, is the 
United States Government satisfied that after the tragic 
incident on the border that we are back on track in terms of 
cooperation and collaboration with respect to 
counterterrorists?
    Ambassador Benjamin. As Secretary Clinton has said, this is 
a very complex relationship that we have with Pakistan. And 
there is no question that there has been something of a pause, 
an interregnum, if you will, caused by the tragic incident in 
Mohmand.
    We are hopeful, now that the Pakistani Parliament has 
concluded its deliberations, that we can continue to build the 
relationship and to get over the tensions of the past. We know 
this won't be easy. There are a lot of contentious issues, but 
we believe that we are going again in the right direction.
    Mr. Connolly. Are they cooperating?
    Ambassador Benjamin. On a number of issues, they certainly 
are.
    Mr. Connolly. On April 12--you mentioned the Parliament. On 
April 12, Pakistan's Parliament unanimously demanded the end of 
all U.S. drone strikes in Pakistani territory. What is the 
reaction of the United States Government to that? And if they 
are cooperating with us, how does--that seems to fly in the 
face of cooperation.
    Ambassador Benjamin. Well, we are still studying the 
resolution that the Pakistani Parliament passed, and we are 
engaging in talks with the government to see what the 
implications of that are. And of course this is a program that 
we don't discuss in public, so I am afraid I can't really go 
beyond that.
    Mr. Connolly. Well, without discussing the program, let us 
just discuss the policy. When another legislative body 
unanimously does something that would suggest that certainly at 
least on the legislative side of that government they have 
taken a pretty firm position of non-cooperation, it is not a 
classified matter that the United States has deployed drones 
both in Pakistan and across the border.
    Should the Congress of the United States not read into that 
a resolve to end cooperation, at least with respect to the 
deployment of that technology, without getting into the 
deployment of that technology?
    Ambassador Benjamin. My own view, sir, is that the prudent 
thing to do is allow us to have our conversations with the 
Pakistani Government, and to see how it wishes to act on the 
basis of a resolution which I believe is non-binding.
    Mr. Connolly. Mr. Chairman, I know my time has ended, but I 
do think this is a very important development. And I understand 
the diplomatic nicety being expressed here by Ambassador 
Benjamin, but I would simply say for the record that I think 
this is a grave matter. And I think that while the Ambassador 
pleads for patience, and he deserves patience, patience is 
wearing thin I think in the Congress on both sides of the aisle 
on this matter.
    With that, I thank the chair for the time.
    Mr. Royce. Thank you, Mr. Connolly.
    I had one last question for Ambassador Benjamin. And that--
just going through your testimony last year before the 
committee, you testified that ``we continue to see a strong 
flow of new recruits into many of the most dangerous terrorist 
organizations.'' And I was going to ask you if that strong flow 
is still the state of play. What do you see?
    Ambassador Benjamin. It is hard to measure the flow of 
recruits, but we have a strong sense that in many different 
parts of the world the terrorist groups are indeed gaining 
strength. This is certainly the case in Yemen where AQAP, al-
Qaeda in the Arabian Peninsula, has--now holds territory, as I 
mentioned in my statement, and where it has picked up 
membership.
    We have seen that what is going on, admittedly not in an AQ 
affiliate, but in Boko Harem, which you mentioned before, 
suggests that that group has grown in strength. We do believe 
that AQIM and the Islamic Maghreb has also probably added some 
recruits to its ranks.
    The exception is probably al-Qaeda core in the federally 
administered tribal areas. That group is in particularly 
difficult circumstances, as I think is well known to this 
subcommittee. But, you know, I believe that our work in 
strategic counterterrorism, and particularly in countering 
violent extremism, is as essential as ever, precisely because 
even though many of the peaks of this movement have been cut 
off and don't threaten us in the way they did before, there 
remains a large number of people out there who are committed to 
violence against the United States, its values, and its 
friends. And that is why I believe that we need to do what we 
can to cut off the flow of recruits to these organizations.
    Mr. Royce. One of the areas where counterterrorism has been 
pretty effective is with the Philippines. The Joint Special 
Operations Task Force Philippines, do you see that continuing 
as it has?
    Ambassador Benjamin. Sir, I think that is a question best 
for the Department of Defense. But I would certainly agree with 
you that both on the military side and on the civilian side we 
have had very good results in the Philippines. And I think it 
demonstrates the kind of advances you can make with a robust 
capacity building effort, and robust coordination between our 
military and our others.
    And when I look around the region, in particular of 
Southeast Asia, I think that we have a strong model of what you 
can do with robust engagement with these countries, whether it 
is the Philippines, Indonesia, or others. And I would certainly 
commend that to the attention of the committee.
    Mr. Royce. Thank you. Thank you very much, Ambassador 
Benjamin, and thank you for your testimony here today.
    We stand adjourned.
    [Whereupon, at 3:07 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


           Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
